                                                           IG-00-055




AUDIT
                           SYSTEM INFORMATION TECHNOLOGY SECURITY
REPORT                                    PLANNING

                                      September 28, 2000




                            OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ID                  Identification
IT                  Information Technology
GAO                 General Accounting Office
JPL                 Jet Propulsion Laboratory
NIST                National Institute of Standards and Technology
NPG                 NASA Procedures and Guidelines
OMB                 Office of Management and Budget
OPM                 Office of Personnel Management
SMA                 Special Management Attention
W                                                                                           September 28, 2000


TO:             A/Administrator

FROM:           WInspector General

SUBJECT: INFORMATION: System Information Technology Security Planning
          Report Number IG-00-055


The NASA Office of Inspector General has completed an audit of System Information
Technology Security Planning. We found that NASA has not adequately complied with the
Computer Security Act of 1987 and Office of Management and Budget (OMB) Circular A-
130, "Management of Federal Information Resources," dated February 8, 1996. NASA
managers did not assign sufficient priority to information technology (IT) security. NASA
Headquarters and the Centers had no IT security plans for 17 of 38 special management
attention1 (SMA) systems and for 13 of 30 publicly accessible Web site2 host computers in our
samples. The Jet Propulsion Laboratory (JPL) has no IT security plans for its IT systems. In
addition, there are no security plans, contingency plans, or risk assessments for five elements of
a major information system.3 Initial and periodic personnel screening requirements in Agency
policy do not comply with OMB Circular A-130 requirements. Therefore, NASA's IT systems
are at increased risk and the effectiveness of NASA's IT security program is degraded. The
Centers and JPL are working to meet the NASA Chief Information Officer's goal of completing
IT security plans for all SMA systems by September 30, 2000. We consider the
noncompliance with the Computer Security Act and OMB Circular A-130 to be a potential
material management control weakness reportable in accordance with OMB Circular A-123,
"Management Accountability and Control," and NASA Policy Directive 1200.1A, "Internal
Management Controls, Audit Liaison, and Followup."



1
  "Special management attention" is a NASA term for information systems that are considered to be the most important
to NASA in accomplishing its mission. Increased oversight of these IT systems is required due to the risk and
magnitude of harm that would result from the loss, misuse, unauthorized access to, or modification of the data in a
system.
2
  A publicly accessible Web site is one designed to be viewed by the general public. These Web sites are advertised to
the public such as, www.nasa.gov, or contain links to other NASA public Web sites.
3
  The system will not be identified in the report due to the sensitivity of this information. However, we have advised
NASA officials of the identity of the system so that they may take appropriate corrective action.
                                                                                                                     2


Background

NASA is dependent on IT for all its missions and support activities. The integrity, availability,
and confidentiality of NASA's electronic information are critically important unless its computing
environment is secure. IT security plans report the outcome of the IT security planning process,
provide essential information about the system, describe the associated risks, and the security
controls that have been implemented. NASA managers must authorize the use of each IT
system based on the implementation of its security plan before the system is placed in service,
when significant changes are made, and when 3 years have expired since the last authorization.

Recommendations

We recommended that the NASA Chief Information Officer create an inventory containing the
status of IT security plans and authorizations to use the systems and require quarterly updates.
This inventory will provide senior NASA management more visibility of the status of IT security
plans and authorizations to use the systems. NASA managers used a similar inventory during the
Year 2000 date conversion problem. We also recommended that Associate Administrators
and Center Directors report the Federal noncompliance conditions to the Agency's Internal
Control Council4 as significant areas of concern. Agency managers and employees should
identify and report deficiencies that are or should be of interest to the next level of management.
We recommended that the Director, Goddard Space Flight Center expedite the development
and implementation of IT security plans for one of NASA's major IT systems. IT security plans
are the equivalent of Program and Project Plans. Not having a plan significantly increases the
possibility that IT security risks have not been identified, adequate protective measures have not
been implemented, and NASA managers are unaware of the risks associated with operating the
system. Finally, we recommended that the NASA Chief Information Officer expand policy
requirements for personnel screenings to comply with OMB Circular A-130. Initial and
periodic screening of individuals supplements technical, operational, and management controls,
particularly where the risk and magnitude of harm is high.

Management Response and OIG Evaluation

Management concurred with 7 of the 10 recommendations. Management partially concurred
with recommendations to report the Federal noncompliance conditions at JPL, Langley
Research Center (Langley), and NASA Headquarters to the Agency's Internal Control Council
as significant areas of concern. Management stated that Langley and NASA Headquarters are
scheduled to have fully compliant IT security plans for all SMA systems by September 30,
2000. With the completion of these plans, there is no need to report noncompliance conditions
as a significant area of concern. We agree that there is no need to report the noncompliance

4
  The Internal Control Council makes recommendations to the NASA Administrator on issues for NASA's annual
statement of assurance to the President and Congress, pursuant to the Federal Managers' Financial Integrity Act and for
incorporation into NASA's annual Accountability Report.
                                                                                             3


conditions as a significant area of concern, if the noncompliance conditions are corrected by
September 30, 2000. However, we have no assurance that Langley and NASA Headquarters
will meet the schedules. We have requested that management provide additional information on
the completion of SMA system IT security plans at the two locations. In addition, management
stated that the condition of IT security plans at JPL is a contractual issue and not a Federal
Managers' Financial Integrity Act issue. We agree that JPL does not participate in the Agency's
internal control process; however, the NASA officials who manage the programs that JPL
conducts do participate. JPL manages a significant amount of IT resources that are essential to
the conduct of Agency programs. NASA managers are ultimately responsible for the security
of NASA's IT resources. We have asked that management reconsider its position on the
reporting of significant areas of management concern related to functions performed by
contractors.


[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of System Information Technology Security Planning
             FINAL REPORT
SYSTEM INFORMATION TECHNOLOGY SECURITY
               PLANNING
W                                                                          September 28, 2000


TO:              AO/Chief Information Officer

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of System Information Technology Security
                 Planning
                 Assignment Number A0003700
                 Report Number IG-00-055


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your responses has been incorporated
into the body of the report. The corrective actions taken or planned for recommendations 1, 2,
5, 6, 7, 9, and 10 are responsive. The corrective actions planned for recommendations 3, 4
and 8 are not responsive because additional information is needed for us to determine whether
management has corrected the Federal noncompliance conditions related to the
recommendations. In addition, we request that management reconsider its position on
recommendation 4 concerning reporting of significant areas of management concern. Your
actions are sufficient to close recommendations 2, 5, and 6 for reporting purposes. We request
additional information as described in the report for recommendations 1, 3, 4, and 8 by
November 27, 2000. Recommendations 1, 7, 9, 10 will remain open for reporting purposes
until agreed-to corrective actions are completed. For corrective actions that are incomplete,
please notify us when action has been taken, including the extent of testing performed to ensure
corrective actions are effective.

If you have questions concerning the report, please contact Mr. Gregory B. Melson, Program
Director, Information Assurance Audits, at (202) 358-2588, or Mr James W. Geith, Auditor-
in-Charge, at (301) 286-7943. We appreciate the courtesies extended to the audit staff. The
final report distribution is in Appendix E.

[Original signed by]

Russell A. Rau
                                                                 2

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
JM/Acting Director, Management Assessment Division
GRC/3-2/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
LaRC/106/Director, Langley Research Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations , 2

     Finding A. System Security Controls, 2

     Finding B. Personnel Screening, 11

Appendix A - Objectives, Scope and Methodology, 13

Appendix B - Federal Guidance on Information Technology Security,
17

Appendix C - Material Control Weakness, 21

Appendix D - Management's Response, 22

Appendix E - Report Distribution, 26
                                  NASA Office of Inspector General

IG-00-055                                                                                  September 28, 2000
 A0003700
                                    System Information Technology
                                          Security Planning

                                              Executive Summary

Background. Successful accomplishment of NASA's mission depends heavily on automated
information resources. As technology evolves, these resources face increasing vulnerability to
external and internal attack. Our risk-based analysis of various Federal IT security requirements
indicated that NASA's IT security planning was the most fundamental and highest risk area for which
additional NASA Office of Inspector General review was warranted. Specifically, we determined
that a review of strategic and system information security planning, including the adequacy of existing
policy and implementation, should be the first step in assessing NASA-wide information security
activities.5

Objectives. The overall objective was to determine whether NASA had established and
implemented effective security plans for general support systems6 and major applications,7 including
publicly accessible Web sites. We reviewed a sample of 38 IT security plans for SMA IT systems
and a sample of 30 plans for computers that host publicly accessible Web sites8 at eight NASA


5
  The General Accounting Office (GAO) stated in its Report Number GAO/AIMD-98-68, "GAO Executive Guide,
Information Security Management, Learning from Leading Organizations," May 1998:

                    The single most important factor in prompting the establishment of an effective
                    security program was a general recognition and understanding among the
                    organization's most senior executives of the enormous risks to business operations
                    associated with relying on automated and highly interconnected systems. However,
                    risk assessments of individual business applications provided the basis for
                    establishing policies and selecting related controls. Steps were then taken to increase
                    the awareness of users concerning these risks and related policies. The effectiveness
                    of controls and awareness activities was then monitored through various analyses,
                    evaluations, and audits, and the results provided input to subsequent risk
                    assessments, which determined if existing policies and controls needed to be modified.

6
  OMB Circular A-130 defines a general support system as "an interconnected set of information resources under the same
direct management control which shares common functionality. A system normally includes hardware, software, information,
data, applications, communications, and people."
7
  OMB Circular A-130 defines a major application as "an application that requires special attention to security due to the risk
and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or modification of the information in the
application."
8
  We identified a universe of 177 security plans for SMA IT systems and a universe of 195 security plans for Web site host
computers.
installations.9 We compared the contents of the security plans with the requirements for security
plans in OMB Circular A-130 and NASA Procedures and Guidelines (NPG) 2810.1, "Security of
Information Technology," dated August 26, 1999. Details on our objectives, scope, and
methodology are in Appendix A.

Results of Audit. NASA has not adequately complied with the Computer Security Act of 1987
and OMB Circular A-130.

•   NASA Headquarters and the Centers had no IT security plans for 17 of 38 SMA systems and
    for 13 of 30 Web site host computers in our samples. JPL has no IT security plans for its IT
    systems. None of the IT security plans in either sample fully complies with OMB Circular A-
    130. In addition, there are no security plans, contingency plans, or risk assessments for five
    major elements of a major information system. The lack of adequate IT security plans
    significantly reduces the effectiveness of the IT security programs for those systems. The
    Centers and JPL intend to complete the IT security plans for SMA systems by September 30,
    2000 (Finding A).

•   Initial and periodic personnel screening requirements in NPG 2810.1 do not comply with OMB
    Circular A-130 requirements. The NPG lacks requirements for periodic screening of individuals
    authorized to bypass system security controls. In addition, the NPG lacks a requirement to use
    initial and periodic personnel screening as a control when applications or the information in an
    application cannot be adequately protected because line managers do not use other controls
    such as individual accountability or when the controls do not provide sufficient protection.
    Inadequate personnel screening combined with the use of group user ID's increased the security
    risks for IT systems (Finding B).

We consider the Agency noncompliance with the Computer Security Act and OMB Circular A-130
to be a potential material control weakness reportable in accordance with OMB
Circular A-123, "Management Accountability and Control," June 21, 1995, and NASA Policy
Directive 1200.1A, "Internal Management Controls, Audit Liaison, and Followup," dated June 1,
2000 (see Appendix C for a detailed discussion).

Recommendations. We recommended that NASA management establish an inventory of IT
systems and IT security plans to manage the development and implementation of IT system security
programs, develop and implement IT security plans for some elements of a major IT system, and
revise Agency IT security policy on personnel screening requirements. Also,
Associate Administrators and Center Directors should report to the Agency's Internal Control
Council the Federal noncompliance conditions as significant areas of concern to be included in
NASA's annual Federal Managers' Financial Integrity Act statement of assurance.

9
 We reviewed security plans at NASA Headquarters, Ames Research Center (Ames), John H. Glenn Research Center at
Lewis Field (Glenn), Goddard Space Flight Center (Goddard), John F. Kennedy Space Center (Kennedy), Lyndon B. Johnson
Space Center (Johnson), Langley, and George C. Marshall Space Flight Center (Marshall).




                                                         ii
Management's Response. Management concurred with the recommendations to establish an
inventory of IT systems and IT security plans, to develop and implement IT security plans for some
elements of a major IT system, and to revise Agency IT security policy on personnel screening
requirements. The Director, Glenn Research Center at Lewis Field and the Director, Goddard
Space Flight Center concurred with the recommendations to report their respective Center's Federal
noncompliance conditions as a significant area of concern to the Agency's Internal Control Council.
The Associate Administrator for Headquarters Operations, the Associate Administrator for Space
Science, and the Director, Langley Research Center partially concurred with these
recommendations. Langley and NASA Headquarters have scheduled completion all of their SMA
system IT security plans by September 30, 2000. Management stated that if all the plans are
completed, the noncompliances would no longer exist, and there would be nothing to report. In
addition, the Associate Administrator for Space Science did not agree on the applicability of OMB
Circular A-123 reporting requirements to JPL's operations.

Evaluation of Management's Response. Management's planned or completed actions on the
recommendations to establish an inventory of IT systems and IT security plans, to develop and
implement IT security plans for some elements of a major IT system, and to revise Agency IT
security policy on personnel screening requirements are responsive. The Center Directors' reporting
of their Center's Federal noncompliance conditions as a significant area of concern was also
responsive. The responses by the Associate Administrator for Headquarters Operations, and the
Director, Langley Research Center are not fully responsive without evidence that shows the
significant noncompliance conditions we found no longer exist. The Associate Administrator for
Space Science's position on reporting management concerns related to JPL's operations is
nonresponsive because NASA managers are ultimately responsible. We request that we be notified
when the SMA system IT security plans for the IT systems at Langley and NASA Headquarters are
completed so that we can review them. We also request that the Associate Administrator for Space
Science reconsider his position on reporting JPL's Federal noncompliance conditions as a significant
area of concern to the Internal Control Council.




                                                 iii
Introduction

The current NASA Strategic Plan states that one of NASA's objectives is to:

                Ensure information technology provides an open and secure exchange of information,
                is consistent with Agency technical architectures and standards, demonstrates a
                projected return on investment, reduces risk, and directly contributes to mission
                success.


To achieve the objective of security in computing, NASA must ensure that the following three
computer security characteristics are maintained:

                a.   Integrity--The ability to ensure that information, the applications processing
                     that information, the information technology systems used to run that
                     information, and the hardware configuration, connectivity, and the status of
                     privilege settings cannot be altered during processing, storage or transmission.

                b.   Availability--The ability to ensure that data, applications, and systems are
                     accessible when and where needed.

                c.   Confidentiality--The ability to ensure that information is disclosed only to those
                     who have a valid need to possess it.


A secure computing environment is based on managing the risks to an appropriate level. The
security controls applied to a computer system should be commensurate with the magnitude of harm
that would result from the loss, misuse, inability to access, unauthorized access to, or modification of
the information in the system. An IT security plan reports the outcome of the IT security planning
process. An IT security plan provides key information about the system and describes the
associated risks and the security controls that have been implemented. The IT security plan is the
source document that describes how the security controls for a particular system function.

The NASA Administrator recently emphasized the importance of IT security planning in his Safety
and Health Message, titled "NASA Security: Classified Information, Information Technology, and
International Technology Transfer/Export Controls," dated June 19, 2000. The Administrator stated:

                Every NASA information technology system must have a security plan that included
                risk assessment and implementation of appropriate safeguards. These plans must be
                signed by the project or program manager to attest that the system is ready to
                operate.
Findings and Recommendations

Finding A. System Security Controls

NASA managers have not developed and implemented IT security plans for many of the Agency's
SMA IT systems and computers that host publicly accessible Web sites. In addition, many of the
existing IT security plans are inadequate, and several of NASA's SMA IT systems and Web site
host computers are operating without the required authorizations. These conditions exist because
NASA managers have not complied with Federal policy and have given IT security a low priority.
Consequently, the security risks have increased for many SMA IT systems and other IT resources
and the effectiveness of NASA's IT security program has been reduced. We consider the
noncompliance with the Computer Security Act and OMB Circular A-130 to be a potential material
weakness reportable to the Agency's Internal Control Council.

Federal Policies on Information Technology Security Planning

"The Computer Security Act of 1987," Public Law 100-235, requires agencies to establish a
security plan for each Federal computer system.

OMB Circular A-130, Appendix III, requires that agencies implement and maintain a program to
assure that adequate security is provided for all agency information collected, processed, transmitted,
stored, or disseminated in IT systems. The Circular identifies four controls that are required for each
IT system. Agency managers must:

•   Assign responsibility for the security of each system to an individual knowledgeable in the
    information technology used in the system and in providing security for such technology.

•   Plan for adequate security of each general support system and major application. Each security
    plan must contain the information required by the Circular.

•   Review the security controls in each system when significant modifications are made to the
    system or when 3 years have elapsed since the last review.

•   Authorize in writing the use of each system based on the implementation of its security plan
    before beginning or significantly changing processing in the system. Authorizations to process
    must be renewed at least every 3 years.

The Circular also requires that IT security plans establish system requirements for a number of
controls for general support systems, including:

•   Rules of the System. The plan must establish a set of rules of behavior concerning use of,
    security in, and the acceptable level of risk for, the system. The rules must clearly describe the
    consequences of behavior not consistent with the rules.

                                                   2
•   Training. The plan must describe how all individuals will be trained in how to fulfill their security
    responsibilities before allowing them access to the system. Behavior consistent with the rules of
    the system and periodic refresher training must be required for continued access to the system.

•   Personnel Controls. The plan must require screening of individuals who are authorized to bypass
    significant system technical and operational security controls of the system commensurate with
    the risk and magnitude of harm these individuals could cause. Such screening shall occur before
    an individual is authorized to bypass controls and periodically thereafter.

•   Incident Response Capability. The plan must describe the capability to provide help to users
    when a security incident occurs in the system and to share information concerning common
    vulnerabilities and threats. This capability shall share information with other organizations,
    consistent with National Institute of Standards and Technology (NIST) coordination, and should
    assist the agency in pursuing appropriate legal action, consistent with Department of Justice
    guidance.

•   Continuity of Support. The plan must establish the capability to continue providing service within
    a system based upon the needs and priorities of the participants of the system. The plan must
    include requirements for periodically testing the capability.

•   Technical Security. The plan must describe how cost-effective security products and techniques
    are appropriately used within the system.

•   System Interconnection. The plan must include the requirement to obtain written management
    authorization, based upon the acceptance of risk to the system, before connecting with other
    systems.

Circular A-130 establishes similar requirements for security plans for major applications. (Appendix
B contains the detailed requirements.)

NASA Policies on Information Technology Security Planning

NPG 2810.1 implements the Computer Security Act and Circular A-130 requirements. The
Circular requires only that a responsible manager sign the authorization to use the system. The NPG
adds a requirement that the Center Chief Information Officer also sign the authorization to use for
SMA systems.

Information Technology Security Plans

We used a combination of random and judgmental sampling to select a sample of IT security plans
for 38 SMA systems and 30 Web site host computers at 8 NASA Centers. There were no IT
security plans for 17 of the SMA systems and for 13 of the Web site host computers. At Glenn,
NASA Headquarters, and Langley, none of the sampled SMA IT systems had a security plan. Only
                                                    3
one of the five Web site host computers in the Glenn sample had a security plan. The sampled Web
site host computers at NASA Headquarters and Langley had no IT security plans. We did not
review a sample of IT security plans at JPL because we determined during our initial data gathering
that JPL had no security plans for any of its IT systems.

Major System IT Security Planning. One of NASA's five major IT investments is a system that
is composed of 14 elements. We included the system in the group of systems that had security plans
because we reviewed a security plan for one of the elements. However, there were no security
plans, contingency plans, or current risk assessments for five of the major elements as required by
the system's "Security Policy and Guidelines," dated October 1997.

Compliance with Federal and Agency Policy

IT Security Plan Compliance with OMB Circular A-130. Deficiencies existed in IT security
plans because line managers either did not establish required security controls or did not document
the security controls in the plans. None of the 21 existing SMA system IT security plans and none of
the 17 existing IT security plans for the Web site host computers fully complied with Circular A-130
requirements. While some plans lacked information in one or two areas, most of the plans lacked
information for several of the controls required by the Circular. Common problems involved the lack
of information on system rules of behavior, initial and periodic training, personnel controls, identifying
and reporting security incidents, continuity of service, technical security, and system interconnection
(see Appendix B). Some of this information existed in other documents that were not referenced in
the security plans. For example, many systems had system rules of behavior, contingency plans, and
procedures for identifying and reporting security incidents in various documents that are not part of
the security plan.

IT Security Plan Compliance with NPG 2810.1. Only 9 of the 21 existing SMA system IT
security plans and 9 of the 17 existing IT security plans for Web site host computers have been
updated based on the requirements of NPG 2810.1. None of the plans contained all the information
required by the NPG. While the deficiencies varied from plan to plan, many plans lacked
information on rules of the system or application, contingency planning, training, and procedures for
reviewing security controls. Civil service and contractor personnel who rewrote the security plans
using NPG 2810.1 criteria did not include all the required information. In addition, NASA
management approved the plans but did not determine that required information was missing.

Authorizations to Process

NASA managers had authorized only 12 of the 38 SMA systems and 16 of the 30 Web site host
computers in the sample to operate. The authorizations for one SMA system and one Web site host
computer had expired. Although there were no security plans, the NASA managers responsible for
three of the elements of a major IT system signed authorizations to process. Center Chief
Information Officers had not signed 11 of the authorizations to process that were prepared after
NPG 2810.1 became effective.


                                                    4
The General Accounting Office (GAO) reported the failure of NASA managers to complete
required authorizations for IT systems in its audit report titled, "Information Security, Many NASA
Mission-Critical Systems Face Serious Risks," Report Number GAO/AIMD-99-47, May 1999.
The GAO report states that NASA managers had not authorized the use of 133 of the 155 systems
in the GAO sample. NASA concurred with the GAO recommendation to implement an effective IT
security program that includes formally authorizing the use of all systems before they become
operational and at least every 3 years thereafter. NASA management included the requirement in
NPG 2810, which was issued August 26, 1999.

Priority of Information Security

The absence and inadequacy of security plans and lack of authorizations to process resulted from the
low priority that NASA managers consistently gave to IT security and compliance with the
Computer Security Act, OMB Circular A-130, and NPG 2810.1. In addition, many IT security
plans do not comply with Circular A-130 because Center and Program managers continued to use
the outdated guidance in NASA Handbook 2401.9A, "NASA Automated Information Security,"
dated June 1993, to manage their IT security programs until NPG 2810.1 was issued. The NASA
Handbook required security plans for each IT system and that NASA managers authorize the use of
the system at least every 3 years or more often if major changes were made to the system. The
NASA Handbook did not require that the security plans contain some of the information required by
OMB Circular A-130. Security plans that were rewritten using the NPG 2810.1 requirements
lacked information required by OMB Circular A-130 because the NPG initial and periodic
personnel screening requirements for IT security plans do not comply with OMB Circular A-130
(see Finding B).

The lack of IT security plans for the major IT system elements can also be attributed to the low
priority the Project Office gave IT security. The Project Office planned to have the development
contractor prepare the plans and risk assessments, but the requirement was not included in the
contract because of problems in the development of the system. Extensive modifications to the
planned system were needed. NASA managers directed the contractor to concentrate its efforts on
the modification of the system.

Management Controls

Information technology security policies and plans are part of the management controls for IT
resources. If an agency has no security plan or required authorization to process for a system, OMB
Circular A-130 requires that the agency consider identifying a deficiency pursuant to OMB Circular
A-123 and the Federal Managers' Financial Integrity Act. Additionally, NASA Policy Directive
1200.1A, "Internal Management Controls and Audit Liaison and Followup," requires managers to
identify and recommend significant areas of concern that may be the result of weak, inadequate, or
unenforced management controls. The management control officer will determine whether significant
areas of concern are reported. The widespread noncompliance with the Computer Security Act,
OMB Circular A-130, and NPG 2810.1 reported in this report and GAO Report Number
GAO/AIMD-99-47 indicates that many of NASA's management controls related to IT security are
                                                 5
inadequate and unenforced. Yet, only the Director, Goddard Space Flight Center, identified IT
security as a significant weakness and concern during fiscal year 1999. (See Appendix C for a
detailed discussion on the procedures for reporting significant areas of concern.)

Effect on NASA's IT Security Program

The absence and inadequacy of security plans for many IT systems and the lack of authorizations to
process significantly degrade the security of the SMA systems and Web site host computers. The
effectiveness of the NASA IT security program has been significantly reduced.

Management Actions

NASA management increased emphasis on IT security in 1998. NASA management was aware of
noncompliances with Federal and Agency IT security policy, procedures, and guidelines. The
NASA Chief Information Officer established a goal of completing IT security plans for all SMA
systems by September 30, 2000. In response, Glenn, Headquarters, JPL, Langley, and most of the
other Centers are developing or revising IT security plans using the NPG 2810.1 guidelines and
intend to complete the security plans for SMA systems by September 30, 2000. However, the
Agency has not modified many IT services contracts to require compliance with the NPG. For
example, Johnson has not modified Consolidated Space Operations Contract NAS9-98100 to
require preparation of information security plans that comply with the NPG. This contract supports
the IT resources that support space operations at Goddard, JPL, Johnson, Kennedy, and Marshall.
In addition, Goddard intends to update its plans as they come up for the 3-year review. On July 14,
2000, the NASA Office of Procurement issued Procurement Information Circular 00-12. This
Procurement Information Circular establishes standard contractual requirements for safeguarding the
integrity of unclassified NASA information technology systems. The Circular requires that
contracting officers add a revised NASA Federal Acquisition Regulation Supplement clause to all
existing solicitations and contracts by December 31, 2000, where appropriate. The clause requires
that NASA contractors and subcontractors comply with the security requirements outlined in NASA
Policy Directive 2810.1, "Security of Information Technology," dated October 1, 1998, and NPG
2810.1 and with additional safeguarding requirements in the contract clause.

Glenn expects to complete 25 percent of its Web site IT security plans by October 2000. While
JPL has not established specific completion dates for its Web site IT security plans, JPL
management estimates it will complete all of its IT security plans by September 30, 2001.
Headquarters expects to complete all of its Web site IT security plans by April 30, 2001. As a
result, some Web site IT security plans may not comply with OMB Circular A-130 until 2002 or
later.




                                                6
Model of Meeting Year 2000 Date Conversion Problem to Develop and Implement
Security Plans

When NASA faced the Year 2000 date conversion problem, the NASA Chief Information Officer
created an Agency-wide inventory of IT systems. The inventory indicated whether the system was
Year 2000 compliant and showed schedule information for the actions being taken to make
noncompliant systems compliant. The NASA Centers submitted quarterly reports that identified
their progress in fixing the noncompliant systems. This process proved to be effective for managing
the Year 2000 date conversion problem and could be equally effective for managing the
development and implementation of IT security plans. Note, however, there is not a one-to-one
correlation between the number of IT systems and the number of security plans that are required.
For some systems, NASA management has chosen to develop separate security programs for each
major element or component of the system. This separation of security responsibility would make it
necessary for the inventory to identify the status of the security plans and authorizations to process
for each element.

Recommendations, Management's Response, and Evaluation of Response

The NASA Chief Information Officer should:

    1. Create of an inventory of every NASA IT system and the status of the supporting IT
security plans and required authorizations to process. The inventory should identify those
systems for which NASA management will have separate security plans for each major
element or component of the IT system.

Management's Response. Concur. The Chief Information Officer's staff will maintain an SMA
systems inventory from data the Centers provide. The Centers will maintain inventories of other IT
systems. The Agency Chief Information Officer's staff will be able to access the inventories.

Evaluation of Management's Response. Management's proposed actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open until
agreed-to corrective actions are completed. We request that management provide a schedule for
establishing the inventories.

    2. Require the Centers and the Jet Propulsion Laboratory to submit quarterly status
reports until there is a current security plan and authorization to process for each IT
system or system element.

Management's Response. Concur. The Chief Information Officer requires a quarterly status
report on priority systems. The Chief Information Officer determines each year what the priority
systems will be. For FY 2000, the Chief Information Officer defined the priority systems as SMA
systems.



                                                  7
Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved and dispositioned.

3. The Associate Administrator for Headquarters Operations should report to the
Agency's Internal Control Council the Headquarters' Federal noncompliance conditions as
a significant area of concern to be included in NASA's annual Federal Managers' Financial
Integrity Act statement of assurance.

Management's Response. Partially concur. NASA Headquarters has developed a schedule to
correct the deficiencies that were noted at the time of the audit. All SMA systems are scheduled to
have fully compliant IT security plans with Chief Information Officer approval by September 30,
2000. All Headquarters general support systems will have IT security plans by April 30, 2001.
With the completion of these plans, there is no need to report noncompliance conditions as a
significant area of concern to be included in NASA's annual Federal Managers' Financial Integrity
Act statement of assurance.

Evaluation of Management's Response. Management is not fully responsive to the
recommendation. We agree that there is no need to report the noncompliance conditions if NASA
Headquarters corrects the deficiencies by September 30, 2000. However, NASA management has
not provided evidence to show that the significant noncompliance conditions we found no longer
exist. Therefore, the recommendation is unresolved and undispositioned. We request that we be
notified when management completes the SMA system IT security plans so that we can review them.

4. The Associate Administrator for Space Science should report to the Agency's Internal
Control Council the Jet Propulsion Laboratory Federal noncompliance conditions as a
significant area of concern to be included in NASA's annual Federal Managers' Financial
Integrity Act statement of assurance.

Management's Response. Partially concur. Management agrees that JPL should have IT security
plans. However, this is a contractual issue and not a Federal Managers' Financial Integrity Act issue.
Because of JPL's status as a contractor-operated installation, JPL does not participate in the
Agency's internal control process. The Agency's contractual relationship with the California Institute
of Technology, which manages JPL, provides for assessments of contractor performance through the
mechanism of semiannual performance evaluations.

Evaluation of Management's Response. Management's comments are not responsive to the
recommendation. We recognize that JPL is a contractor and does not participate in the Agency's
internal control process. The NASA officials who manage the programs that JPL conducts do
participate in the Agency's internal control process and are required to report significant areas of
concern for their area of responsibility. JPL manages a significant amount of NASA's IT resources.
The logical extension of management's position is that no deficiencies in any of NASA's IT systems
that are managed by contractors are reportable. This is not the case. OMB Circular A-130 and
NPG 2810.1 hold NASA managers responsible for


                                                  8
the security of Government information technology systems. We request that management
reconsider its position and provide additional comments. The recommendation is unresolved and
undispositioned.

5. The Director, John H. Glenn Research Center at Lewis Field, should report to the
Associate Administrator for Aerospace Technology the Glenn Federal noncompliance
conditions as a significant area of concern to be included in NASA's annual Federal
Managers' Financial Integrity Act statement of assurance.

Management's Response. Concur. Glenn has already reported this condition in its
August 15, 2000, Federal Managers' Financial Integrity Act annual statement of assurance. Glenn
has a project plan in place to complete all of its SMA system IT security plans by September 30,
2000, and all the remaining IT system security plans by September 30, 2002.

Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved and dispositioned.

The Director, Goddard Space Flight Center, should:

   6. Report to the Associate Administrator for Earth Science the major IT system
Federal noncompliance conditions as a significant area of concern to be included in NASA's
annual Federal Managers' Financial Integrity Act statement of assurance.

Management's Response. Concur. The Director's Statement of Assurance to the Associate
Administrator for Earth Science highlights IT security as one of three areas for special discussion.
The Statement of Assurance discusses many actions that Goddard is taking to improve IT security.
These actions include addressing, in particular, the IT security issues identified in this report.

Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved and dispositioned.

   7. Expedite the development and implementation of the required security plans,
contingency plans, and risk assessments for the major IT system.

Management's Response. Concur. Each of the specified elements of this major information
system will deliver a comprehensive security plan, contingency plan, and risk assessment to the major
element IT Security Official by the end of the calendar year. The major element IT Security Official
will present these plans and assessments to the Goddard Chief Information Officer for his review.

Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open until
agreed-to corrective actions are completed.



                                                  9
8. The Director, Langley Research Center, should report to the Associate Administrator
for Aerospace Technology the Langley Federal noncompliance conditions as a significant
area of concern to be included in NASA's annual Federal Managers' Financial Integrity
Act statement of assurance.

Management's Response. Partially concur. All Langley SMA system plans are scheduled for
completion by September 30, 2000. With the completion of these plans, there is no need to report
noncompliance conditions as a significant concern to be included in NASA's annual Federal
Managers' Financial Integrity Act statement of assurance.

Evaluation of Management's Response. Management is not fully responsive to the
recommendation. As stated in our response to management's comments on recommendation 3, we
agree that there is no need to report the noncompliance conditions if Langley corrects the
deficiencies by September 30, 2000. However, NASA management has not provided evidence that
shows the significant noncompliance conditions we found no longer exist. Therefore, the
recommendation is unresolved and undispositioned. We request that we be notified when
management completes the SMA IT security plans so that we can review them.




                                               10
Finding B. Personnel Screening

The personnel screening requirements in NPG 2810.1 do not comply with OMB Circular A-130.
The NPG does not require periodic screening of individuals who can bypass system security controls
or initial and periodic screening of individuals when applications or the information in the application
are not adequately protected because managers did not use other controls, such as, individual
accountability or when the controls do not provide adequate security for mission information
systems.10 This occurred because NASA management overlooked the Circular A-130 requirements
when it developed and approved the NPG. As a result, the security of all NASA IT systems may be
degraded.

Federal Policies and Procedures

OMB Circular A-130, Appendix III, requires that security plans for general support IT systems (see
details in footnote 6) include screening individuals who are authorized to bypass significant technical
and operational security controls of a system commensurate with the risk and magnitude of harm
these individuals could cause. Such screening shall occur before an individual is authorized to bypass
controls and periodically thereafter.

OMB Circular A-130, Appendix III, also requires that IT security plans for major applications (see
details in footnote 7) incorporate controls such as separation of duties, least privilege 11 and individual
accountability into the application and application rules of behavior, as appropriate. When such
controls cannot adequately protect the application or information in the application, individuals should
be screened commensurate with the risk and magnitude of the harm they could cause. Such
screening shall be done before an individual is authorized to access the application and periodically
thereafter.

Existing NASA Policy

NPG 2810.1 does not adequately address the personnel screening requirements in OMB Circular
A-130. The NPG requires an initial screening of individuals who are authorized to bypass significant
technical and operational controls of IT systems, but does not require additional periodic screening.
Further, the NPG does not require managers to require initial and periodic screening of individuals
when applications or the information in the application are not adequately protected because line
managers did not use other controls such as individual accountability or the controls do not provide
sufficient protection.

Personnel screening is particularly important because NASA does not always use individual
accountability as a system control. Appendix A of the NPG discourages but permits the use of
10
   Mission information systems contain information, software applications, or computer systems that if altered, destroyed, or
unavailable, could have a catastrophic effect on NASA. Mission information systems include systems that control or directly
support human space flight and space vehicle operations.
11
   Least privilege is the practice of restricting a user's access (to data files, to processing capability, or to peripherals) or type
of access (for example read, write, execute, delete) to the minimum necessary to perform his or her job.

                                                                 11
group user ID's on all categories of information systems, including mission information systems.
When an individual logs on12 to a system using a group user ID,13 the system has no way of
determining a specific individual. Consequently, individual accountability is lost for that session.
During this and previous audit work, we identified two mission information systems that are using
group user ID's. One system supports human space flight; the other system supports space vehicle
operations. The daily use of group user ID's is a significant security risk that degrades the security of
mission systems.

Recommendations for Corrective Action

The NASA Chief Information Officer should revise NPG 2810.1 to comply with OMB
Circular A-130 requirements. Specifically, the NPG should be revised to require:

  9. Periodic screening of individuals who are authorized to bypass significant technical
and operational controls of IT systems.

Management's Response. Concur. Compliance with OMB A-130 will be addressed in the next
revision of NPG 2810.

Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open until
agreed-to corrective actions are completed.

   10. Initial and periodic screening of all individuals commensurate with the risk and
magnitude of the harm they could cause when applications or the information in the
application are not adequately protected because line managers did not use other controls
such as individual accountability or the controls do not provide sufficient protection.

Management's Response. Concur. Compliance with OMB A-130 will be addressed in the next
revision of NPG 2810.

Evaluation of Management's Response. Management's actions are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open until
agreed-to corrective actions are completed.




12
  NPG 2810.1 defines logon as "the identification and authentication sequence that authorizes a user's access to the system."
13
  A group user identification is a system identification that is shared among a group of individuals for logging in to a
computer, application, or set of files.




                                                             12
                    Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA has established and implemented effective
policies and procedures for IT security planning in accordance with OMB Circular A-130.
Specifically, we determined whether the Agency has developed adequate security plans for general
support IT systems, major applications, and publicly accessible Web sites (see details on these
systems in footnotes 6, 7, and 2).

We announced that we would also determine whether the Agency established effective IT security
planning processes as an integral part of its strategic information resources management program.14
The audit announcement stated that we will review the:

•    IT security planning metrics developed for reporting under the Government Performance and
     Results Act;

•    management actions taken on the recommendations from the GAO report number GAO/AIMD-
     99-47, "Information Security, Many NASA Mission-Critical Systems Face Serious Risks"; and

•    management actions taken on the recommendations from NASA's internal "Information
     Technology Security Program Review."

We will cover these elements in the next phase of continuing audit field work and will address them in
a subsequent report(s).

Scope

We performed work at NASA Headquarters, Ames, Glenn, Goddard, JPL, Kennedy, Johnson,
Langley, and Marshall. We reviewed a sample of 38 IT system security plans for SMA systems and
a sample of 30 IT system security plans for computers that host publicly accessible Web sites. We
interviewed NASA and contractor personnel to identify policies and procedures related to IT
security planning and authorizations to process. We also reviewed IT system security plans to
determine whether the plans contained the information required by OMB Circular A-130. We
determined whether each IT system in our samples had a current authorization to process. We did
not perform detailed testing to determine the adequacy or effectiveness of the security measures or
the accuracy of the information in each IT system security plan. We did not use computer-
processed data in the audit.

14
  The audit announcement stated that we would determine whether the Agency has implemented an adequate strategic
information resources management plan that incorporates the system security plans for general support systems and major
applications. We cancelled this objective because the underlying requirement has been deleted by the Information Technology
Reform Act of 1996.


                                                            13
Appendix A

We are separately reviewing NASA's implementation of Presidential Decision Directive 63,
"Protecting American's Critical Infrastructures," dated May 22, 1998, under audit assignment
A0003200, "Review of NASA’s Planning and Implementation for Presidential Decision Directive
63." The objectives of this review are to determine whether NASA has developed an effective plan
for protecting its critical cyber-based infrastructure, identified its critical assets, and adequately
assessed vulnerabilities.

Methodology

We developed two universes of IT system security plans. The first universe consisted of the system
security plans for the SMA IT systems at eight audit locations, which are listed in the table that
follows this section. The second universe consisted of the IT system security plans for the computers
at the eight audit locations that hosted publicly accessible Web sites. We used random sampling to
select five IT system security plans for SMA systems and five security plans for computers that
hosted publicly accessible Web sites at each of the eight audit locations. When there were fewer
than five IT security plans for Web site host computers at a location, we reviewed all the plans. We
intended to review a sample of the IT security plans at JPL, but we learned during the initial data
gathering process that JPL had no security plans for any of its IT systems.

Some Centers identified the security plans for each SMA system and Web site host computer.
When Centers did not identify the IT security plans for their systems, we assumed there was one IT
security plan for each SMA system and one IT security plan for each Web site host computer. After
we started the field work, we learned that some SMA systems had several security plans. Each plan
covered one or more of the system elements. When this situation occurred, we judgmentally
selected one of the plans for review. For example, the Space Network Systems at Goddard has
three IT security plans that cover four major components. We selected the security plan for the
Network Control Center for review.




                                                  14
                                                                                                           Appendix A

The table below shows the number of sampled IT security plans relative to the universe of SMA
systems and Web site host computers.

                                             Number of Plans1               Plans Sampled
                                                     Web Site                      Web Site
                                            SMA         Host                         Host
                        Center             Systems Computers              SMA Computers
                     Ames                      6         24                 5        72
                     Goddard                 32          60                 53       5
                     Glenn                   17          34                 5        5
                     Headquarters            14          14                 5        5
                     Johnson                 23          25                 5        05
                     Kennedy                 17          34                 5        44
                     Langley                 31           1                 5        1
                                                                              5
                     Marshall                37           3                 3        3
                     Total                  177         195                38       30

1
 There is no direct correlation between the number of IT security plans and the number of SMA systems or Web site host
computers. Some IT security plans covered more than one SMA system or Web site host computer. Three of the SMA
systems in the samples had several security plans. Because we did not make additional inquiries for each system, there may
be more SMA IT security plans than shown in the table.

2
 We judgmentally added two more Web site host computers to the sample at Ames because of the large number of Web sites
on the computers.

3
 After we started our field work, we learned that there was more than one IT system security plan for three of the SMA
systems in our Goddard sample. We judgmentally selected one of the plans for each system for review.

4
 We initially selected a sample of five Web site host computer IT system security plans. Kennedy had difficulty in locating
one of the plans. After we completed our visit to Kennedy, we learned that two of the Web sites were on the same computer.
Therefore, we reduced the sample size for Kennedy.

5
    We reduced the sample due to resource and time constraints.


Management Controls Reviewed

We reviewed Federal and NASA policies and procedures relating to IT security planning to
determine whether NASA's IT security policies and system security plans were adequate. We
identified a potential material management control weakness (Finding A) and other management
control weaknesses (Finding B), which are discussed in the Findings section of the report.




                                                              15
Appendix A

Audit Field Work

We performed field work from March through July 2000 at NASA Headquarters, Ames, Glenn,
Goddard, Johnson, Langley, Kennedy, and Marshall. We performed the audit in accordance with
generally accepted auditing standards. In addition, we collected information from JPL.

Prior Audit Coverage

The GAO issued an audit report titled "Information Security, Many NASA Mission-Critical Systems
Face Serious Risks," Report Number GAO/AIMD-99-47, May 1999. The GAO found that
NASA was not effectively and consistently managing IT security throughout the agency. NASA's IT
security program did not include key elements of a comprehensive IT security management program.
Specifically, NASA:

               •   did not effectively assess risks or evaluate needs. One hundred thirty-five of the
                   155 mission-critical systems that we reviewed did not meet all of NASA's
                   requirements for risk assessments.

               •   did not effectively implement policies and controls. NASA's guidance did not
                   specify what information can be posted on public World Wide Web sites nor
                   how mission-critical systems should be protected from well-known Internet
                   threats.

               •   was not monitoring policy compliance or the effectiveness of controls. NASA
                   had not conducted an agency-wide review of IT security at its 10 field centers
                   since 1991. Furthermore, the security of 60 percent of the systems that we
                   reviewed had not been independently audited.

               •   was not providing required computer security training. NASA had no structured
                   security training curriculum.

               •   did not centrally coordinate responses to security incidents. NASA field centers
                   were not reporting incidents to the NASA Automated Systems Incident
                   Response Capability.

               NASA management is aware that its IT security program needs improvement.
               Accordingly, in May 1998 NASA initiated a special review of its IT security
               program. The review identified a number of shortcomings that were consistent with
               our findings. Although NASA is planning to address these shortcomings, at the time
               of our review, few of the special review's recommendations had been implemented.




                                                       16
    Appendix B. Federal Guidance on Information Technology Security

OMB Circular A-130, "Management of Federal Information Resources." Circular A-130
provides uniform management policies on Governmentwide information resources. Appendix III of
the Circular establishes a minimum set of controls to be included in Federal automated information
security programs.

OMB Circular A-130, Appendix III, paragraph A.3.a., requires that agency programs include the
following controls in their general-support systems and major applications:

               a. Controls for general support systems.

                  1)    Assign responsibility for security in each system to an individual
                        knowledgeable in the IT used in the system and in providing security for
                        such technology.

                  2)    Plan for adequate security of each general support system as part of the
                        organization's information resources management (IRM) planning process.
                        Security plans shall include:

                       a)   Rules of the System. Establish a set of rules of behavior concerning use
                            of, security in, and the acceptable level of risk for, the system. The rules
                            shall be based on the needs of the various users of the system. The rules
                            shall be only as stringent as necessary to provide adequate security for
                            information in the system.            Such rules shall clearly delineate
                            responsibilities and expected behavior of all individuals with access to the
                            system. They shall also include appropriate limits on interconnections
                            to other systems and shall define service provision and restoration
                            priorities. Finally, they shall be clear about the consequences of behavior
                            not consistent with the rules.

                       b)   Training. Ensure that all individuals are appropriately trained in how to
                            fulfill their security responsibilities before allowing them access to the
                            system. Such training shall assure that employees are versed in the rules
                            of the system, be consistent with guidance issued by NIST and OPM
                            [Office of Personnel Management]. Behavior consistent with the rules of
                            the system and periodic refresher training shall be required for continued
                            access to the system.

                       c)   Personnel Controls. Screen individuals who are authorized to bypass
                            significant technical and operational security controls of the system
                            commensurate with the risk and magnitude of harm they could cause.
                            Such screening shall occur before an individual is authorized to bypass
                            controls and periodically thereafter.




                                                          17
Appendix B

                    d)   Incident Response Capability. Ensure that there is a capability to
                         provide help to users when a security incident occurs in the system and
                         to share information concerning common vulnerabilities and threats. This
                         capability shall share information with other organizations, consistent
                         with NIST coordination, and should assist the agency in pursuing
                         appropriate legal action, consistent with Department of Justice guidance.

                    e)   Continuity of Support. Establish and periodically test the capability to
                         continue providing service within a system based upon the needs and
                         priorities of the participants of the system.

                    f)   Technical Security. Ensure that cost-effective security products and
                         techniques are appropriately used within the system.

                    g)   System Interconnection. Obtain written management authorization,
                         based upon the acceptance of risk to the system, prior to connecting with
                         other systems. Where connection is authorized, controls shall be
                         established which are consistent with the rules of the system and in
                         accordance with guidance from NIST.

               3)   Review of Security Controls. Review the security controls in each system
                    when significant modifications are made to the system, but at least every three
                    years. The scope and frequency of the review should be commensurate with
                    the acceptable level of risk for the system. Depending on the potential risk
                    and magnitude of harm that could occur, consider identifying a deficiency
                    pursuant to OMB Circular No. A-123, "Management Accountability and
                    Control" and the Federal Managers' Financial Integrity Act (FMFIA), if there
                    is no assignment of security responsibility, no security plan, or no
                    authorization to process for a system.

               4)   Authorize Processing. Ensure that a management official authorizes in writing
                    the use of each general support system based on implementation of its
                    security plan before beginning or significantly changing processing in the
                    system. Use of the system shall be re-authorized at least every three years.

             b. Controls for Major Applications.

               1)   Assign Responsibility for Security. Assign responsibility for security of each
                    major application to a management official knowledgeable in the nature of the
                    information and process supported by the application and in the management,
                    personnel,




                                                     18
                                                                                          Appendix B

     operational, and technical controls used to protect it. This official shall assure
     that effective security products and techniques are appropriately used in the
     application and shall be contacted when a security incident occurs concerning
     the application.

2)   Application Security Plan. Plan for the adequate security of each major
     application, taking into account the security of all systems in which the
     application will operate. The plan shall be consistent with guidance issued by
     NIST. Advice and comment on the plan shall be solicited from the official
     responsible for security in the primary system in which the application will
     operate prior to the plan's implementation. Application security plans shall
     include:

     a)   Application Rules. Establish a set of rules concerning use of and
          behavior within the application. The rules shall be as stringent as
          necessary to provide adequate security for the application and the
          information in it. Such rules shall clearly delineate responsibilities and
          expected behavior of all individuals with access to the application. In
          addition, the rules shall be clear about the consequences of behavior not
          consistent with the rules.

     b)   Specialized Training. Before allowing individuals access to the
          application, ensure that all individuals receive specialized training focused
          on their responsibilities and the application rules. This may be in
          addition to the training required for access to a system. Such training
          may vary from a notification at the time of access (e.g., for members of
          the public using an information retrieval application) to formal training
          (e.g., for an employee that works with a high-risk application).

     c)   Personnel Security. Incorporate controls such as separation of duties,
          least privilege and individual accountability into the application and
          application rules as appropriate. In cases where such controls cannot
          adequately protect the application or information in it, screen individuals
          commensurate with the risk and magnitude of the harm they could cause.
          Such screening shall be done prior to the individuals' being authorized to
          access the application and periodically thereafter.

     d)   Contingency Planning. Establish and periodically test the capability to
          perform the agency function supported by the application in the event of
          failure of its automated support.




                                        19
Appendix B

                  e)   Technical Controls. Ensure that appropriate security controls are
                       specified, designed into, tested, and accepted in the application in
                       accordance with appropriate guidance issued by NIST.

                  f)   Information Sharing. Ensure that information shared from the application
                       is protected appropriately, comparable to the protection provided when
                       information is within the application.

                  g)   Public Access Controls. Where an agency's application promotes or
                       permits public access, additional security controls shall be added to
                       protect the integrity of the application and the confidence the public has
                       in the application. Such controls shall include segregating information
                       made directly accessible to the public from official agency records.

             3)   Review of Application Controls. Perform an independent review or audit of
                  the security controls in each application at least every three years. Consider
                  identifying a deficiency pursuant to OMB Circular No. A-123, "Management
                  Accountability and Control" and the Federal Managers' Financial Integrity Act
                  if there is no assignment of responsibility for security, no security plan, or no
                  authorization to process for the application.

             4)   Authorize Processing. Ensure that a management official authorizes in writing
                  use of the application by confirming that its security plan as implemented
                  adequately secures the application. Results of the most recent review or audit
                  of controls shall be a factor in management authorizations. The application
                  must be authorized prior to operating and re-authorized at least every three
                  years thereafter. Management authorization implies accepting the risk of each
                  system used by the application.




                                                    20
                       Appendix C. Material Control Weakness

OMB Circular A-123 requires agencies to test and report annually on the adequacy of organizational
management controls. Agency managers and employees should report any deficiencies in
management controls if the deficiency is or should be of interest to the next level of management.
Agency employees and managers generally report deficiencies to the next supervisory level, which
allows the chain of command structure to determine the relative importance of each deficiency.

The Circular states:

                A deficiency that the agency head determines to be significant enough to be reported
                outside the agency (i.e. included in the annual Integrity Act report to the President
                and the Congress) shall be considered a "material weakness." This designation
                requires a judgment by agency managers as to the relative risk and significance of
                deficiencies. Agencies may wish to use a different term to describe less significant
                deficiencies, which are reported only internally in an agency. In identifying and
                assessing the relative importance of deficiencies, particular attention should be paid to
                the views of the agency's IG.


NASA Policy Directive 1200.1A, "Internal Management Controls and Audit Liaison and Followup,"
dated June 1, 2000, requires managers to identify and recommend significant areas of management
concern that may be the result of weak, inadequate, or unenforced management controls. Center
Directors forward significant areas of concern to their Institutional Program Office Associate
Administrator. The Associate Administrators report their concerns to the Administrator.
Headquarters Officials in Charge submit significant areas of management concern to the Internal
Control Council, which makes recommendations to the Administrator. The NASA Inspector
General is an ex-officio member of the Internal Control Council and submits significant areas of
concern to the Council. The Administrator decides which concerns will be reported under the
Federal Managers' Financial Integrity Act.




                                                          21
Appendix D. Management's Response




               22
     Appendix D




23
Appendix D




             24
     Appendix D




25
                           Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
 Chief Information Officer, Ames Research Center
Director, John H. Glenn Research Center at Lewis Field
 Chief Information Officer, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
 Chief Information Officer, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
 Chief Information Officer, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
 Chief Information Officer, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Information Officer, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
 Chief Information Officer, Langley Research Center
Director, George C. Marshal Space Flight Center
 Chief Information Officer, George C. Marshal Space Flight Center



                                               26
                                                                                     Appendix E

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               27
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your convenience,
the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector General
for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.



Report Title: System Information Technology Security Planning

Report Number:                                   Report Date:


                  Circle the appropriate rating for the following statements.


                                                 Strongl                              Strongl
                                                    y      Agree   Neutra   Disagre   y         N/A
                                                  Agree              l         e      Disagre
                                                                                         e
1. The report was clear, readable, and              5        4       3         2         1      N/A

   logically organized.
2. The report was concise and to the point.         5        4       3         2         1      N/A

3. We effectively communicated the audit            5        4       3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient information      5        4       3         2         1      N/A

   to support the finding(s) in a balanced and
   objective manner.

Overall, how would you rate the report?

    Excellent            Fair
    Very Good            Poor
    Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

      Congressional Staff                       Media
      NASA Employee                             Public Interest
      Private Citizen                           Other:
      Government:             Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                               No: ______
Name: ____________________________
Telephone: ________________________
Major Contributors to the Report

Gregory B. Melson, Program Director, Information Assurance Audits

Ernest L. Willard, Audit Program Manager

James W. Geith, Auditor-in-Charge

Kathleen M. Kirby, Auditor

Kenneth E. Sidney, Auditor

Brenda K. Stepps, Auditor

Nancy C. Cipolla, Report Process Manager
